§
i.

'

ORIGINAL

No:

IN THE SUPREME COURT OF THE UNITED-ST^[£g§_____________________ _________

AUG 2 6 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

In re. Roger Liverman,

PRO SE PETITIONER
vs.

Lawanda McMurray, et al, — RESPONDENT(S)
ON PETITION FOR A WRIT OF MANDAMUS, TO
THE COURT OF APPEALSf FIFTH CIRCUIT
PETITION FOR WRIT OF MANDAMUS

Roger Liverman
422 Holiday Drive
Ponder, Texas 76259
(940) 372-3686

'V *

QUESTIONS PRESENTED
Writ of Mandamus is the only “remedy” to correct the legal issues before
the Court. Purpose of the Writ of Mandamus and Title 18 U.S.C. §4
Misprision Felony along with the underlying “felonies” involved.
TO CORRECT A FRAUD UPON THE COURT BY THE COURT.
• BY FALSE AND MISLEADING ENTRIES INTO THE OFFICIAL
DOCKET
• FALSE ENTRY TO TERMINATE ^PROCEEDING CONTRARY
TO THE ALLEGED ORDER BY THE COURT
• SETTING UP A FINALITY TRAP TO PREVENT AND BAR
PETITIONER FROM ACCESSING THE COURTS TO HEAR HIS
APPEAL
• COMMITTED MAIL FRAUD, THROUGH RECEIVING A
REQUEST FOR A TRUE AND CORRECT CERTIFIED COPY OF
THE DOCKET, WITH A U.S. POSTAL MONEY ORDER WHICH
IS NOW IN QUESTION WHETHER IS TRUE AND CORRECT
• FAILURE TO FORWARD TITLE 18 U.S.C. §4 MISPRISION
FELONY NOTIFICATION TO THE^ROPER AUTHORITIES
REQURED BY STATUTE.

#' •

b.

CERTIFICATE OF INTERESTED PARTIES
The undersigned counsel of record for Petitioner Roger Liverman certifies that the
following listed persons and entities as described in the U.S. Supreme Court Rules
have an interest in the outcome of this case. These representations are made in
order that the judges of this Court may evaluate possible disqualification or
recusal.
Case No: 19-51053

Fifth Circuit Court of Appeals
U.S. Appellate Judge James C. Ho
U.S. Appellate Judge Jerry E. Smith
U.S. Appellate Judge Gregg J. Costa
Lyle W. Cayce, Clerk
Melissa V. Mattingly, Deputy Clerk
Laney L. Lampard, Deputy Clerk

Western District of Texas (Midland)

Case No: 7:19-cv-00062-DC

U.S. District Judge David Counts
U.S. Magistrate Judge Ronald C Griffin
Jeannette Clack, Clerk
Philip J. Devlin, Chief Deputy Clerk

Eastern District of Texas

Case No: 4:16-cv-00801-ALM-KPJ

U.S. District Judge Amos L Mazzant, III
U.S. Magistrate Judge Kimberly C Priest Johnson

S225

i

Petitioner :

Roger Liverman, 422 Holiday Drive, Ponder, Texas 76259.

Respondent:

Denton County, Texas

Paul Johnson individually “employee” of Denton County, Texas,
Denton County Criminal District Attorney.
Lara Tomlin individually “employee” of Denton County, Texas,
Denton County Criminal District Attorney.
Rick Daniel individually “employee” of Denton County, Texas,
Denton County Criminal District Attorney,
Lindsey Sheguit individually “employee” of Denton County, Texas,
Denton County Criminal District Attorney,
Matthew Shovlin, individually “employee” of Denton County, Texas,
Denton County Criminal District Attorney.
Rex George, individually “employee” of Denton County, Office of
Criminal District Attorney
Larry Don Kish, individually “employee” of Denton County, Sheriffs
Office Investigator.

Counsel for Respondent: Robert J Davis, State Bar No. 05543500, Matthews,
Shiels, Knott, Eden, Davis & Beanland, LLP, 8131 LBJ
Freeway, Suite 700, Dallas, Texas 75251, Office Tel.
972-234-3400

Respondent:

Judge Pete “Pedro” Gomez, Jr (individually)

Counsel for Respondent:

Scot M. Graydon,
-i*

ii

tV,..
--&r

Assistant Attorney General P O Box 12548 Capitol
Station Austin, TX 78711-2548 (512) 463-2120 Fax:
(512) 320-0667 Email: scot.graydon@oag.texas.gov

Respondent:

Ronald Pettigrew (individually) Texas Ranger * Default
Never served Plaintiff with Answer*
Note: In a filing Attorney Jason Bramow, Assistant
Attorney General, State of Texas made the following
claim: “Because Defendant Pettigrew has not answered,”
-rfr'

Counsel for Respondent: Jason Bramow, Assistant Attorney General, State of
Texas, P.O. Box 12548, Capitol Station, Austin, Texas
78711-2548. Office Tel. 512-463-0667

Respondent:

LaWanda McMurray, (individually) District
Cleric/Probate Clerk of Upton County
Probate Judge Vicki Bradley, Deceased
Judge Kathleen Stone, (individually)
Probate Judge Bill Eyler, (individually), Upton County
*not an Attorney*
Upton County, Texas
Default - Didn’t answer Summons on the Date Required.

Counsel for Respondent: Denis Dennis, Attorney of Record
Kelly, Morgan, Dennis, Corzine & Hansen P.O. Box
1311 Odessa, TX 79760 (432) 367-7271 Fax: 432/3639121 Email: ddennis@kmdfirm.com

iii

<■

‘

Appellee:

David Gibson * Default Never served Plaintiff with
Answer*

Counsel for Respondent: David R. Gibson The Gibson Law Group, PC 15400
Knoll Trail Drive, Suite 205, Dallas, TX 75248
-*

817-769-4044 Fax: 817-764-4313 Email:
david.gibson@gibsonlawgroup.com

Appellee:

James McDonald

Counsel for Appellee:

Unknown in Default never answered Suit

Respondent:

Albert G. Valadez, Appearing Pro Se, State Bar No.
20421840, 104 West Callaghan Street, Fort Stockton,
Texas 79735, Office Tel. 432-336-7562

Counsel for Respondent:

Albert G. Valadez, Appearing Pro Se, State Bar

No. 20421840, 104 West Callaghan Street, Fort Stockton,
Texas 79735, Office Tel. 432-336-7562
Respondent:

Katheryn Payne Hall Dutko

Counsel for Respondent:

Albert G. Valadez, State Bar No. 20421840, 104

West Callaghan Street, Fort Stockton, Texas 79735,
Office Tel. 432-336-756
Counsefof Record for Petitioner

Roger Overman, Pro Se
• 422 Holiday Drive, Ponder, Texas 76259

Tel. 940-372-3686
iv

O

'

i,

TABLE OF CONTENTS
Page No.
CERTIFICATE OF INTERESTED PERSONS
TABLE OF CONTENTS

1
~=k

■v

TABLE OF AUTHORITIES

vi

STATEMENT OF THE CASE

01

JURISDICTION

01

REASONS WHY THE WRIT SHOULD ISSUE

02

• THE EXTRAORDINARY REMEDY OF A WRIT OF
MANDAMUS IS APPROPRIATE IN THIS CASE
• IT IS CLEAR AND INDISPUTABLE THAT THE DUTY
REQUESTED BY THE PLAINTIFF-PETITIONER IS
“MINISTRIAL ACT AND DUTY” IN NATURE -BOTH
BY LAW AND BY TRADITION IN JURISPRUDENCE.
LEGAL ANALYSIS

04

BACKGROUND

08

STATEMENT OF FACTS

10

CONCLUSION

■21

RELIEF SOUGHT

•21

V

TABLE OF AUTHORITIES
Page No.

CASE
Avantel S.A., 343 F.3d311, 317 (5th Cir. 2003).

05

Cheney v. U.S. Dist. Court, 542 U.S. 367, 380-81 (2004)

05

Demianiuk v. Petrovsky. 10 F.3d 338, 348 (6th Cir. 1993).

05

Gee. 941 F. 3d 153,157, (5th Cir.2019) (per curium)

02

Mallard v. U.S. Dist. Court. 490 U.S. 296, 309 (1989).

05

Roche v. Evaporated Milk Ass’n, 319 U.S. 21, 26 (1943)

04

Volkswagen of Am.. Inc 545 F.3d 304,311 (5th Cir.2008) (en banc)

02

United States v. DeGroat. 30 F. 764, 765 (E.D.Mich. 1887).

07.14

United States v. Rosner. 352 F. Supp. 915, 919-22 (S.D.N.Y. 1972) -—14
United States v. Simpson. 460 F.2d 515, 518 (9th Cir. 1972).

7,14

CONSTITUTIONAL PROVISIONS
Federal
U.S Const. Art. I

........................................

04

U.S. Const. Art II
U.S. Const. Art. Ill

........................................
......-....................-...........

04
04

The Judiciary Act of 1789 (ch. 20, 1 Stat. 73)

01

vi

i*r

STATUTES
Title 18 U.S.C. § 4 Misprision Felony

1,3,4,8,9,22

Title 18 U.S.C. § 641.................... .

-—13,16

Title 18 U.S.C. § 1361...................

13

Title 18 USC §1512 (b)

16

Title 18 U.S.C. § 2071.....

6,7,13,14,15,20

Title 18 U.S.C. § 2071(a)

...........06,13,14

Title 18 U.S.C. § 2071 (b)

............ 7,8,9

Federal Rules of Civil Procedure
Fed. R. Civ. P. 55

21

Fed. R. Civ. P. 55(a)

3

Other Materials:
9-66.400 - Protection of Public Records, Documents and Other
Government Information ..............................................................-

13

Protection of Public Records and Documents CRM at 1663

13

~k

vii

CASE HISTORY
Roger Liverman, Pro Se Petitioner filed an appeal U.S. District Court Western
District of Texas (Midland/Odessa Division” from:
• The District Court (Judge David Counts) issued an Order Adopting Report
and Recommendation and Affirming the Magistrate Judge’s Order on
October 25, 2019 [Doc 60] in case number 7:19-cv-00062.

• The District Court (Judge David Counts) issued a Final Judgment on
October 25, 2019 [Doc 61] in case number 7:19-cv-00062.

Roger Liverman, Pro Se Petitioner timely filed a Notice of Appeal on November
06,2019. No. 19-51053 COA. The U.S. Court of Appeals, Fifth Circuit has
jurisdiction over the appeal under Title 28 U.S.C. Sec. 1291 Final decisions of
sk:.

district courts.
“The courts of appeals (other than the United States Court of Appeals for the
Federal Circuit) shall have jurisdiction of appeals from all final decisions of
the district courts of the United States, the United States District Court for
the District of the Canal Zone, the District Court of Guam, and the District
Court of the Virgin Islands, except where a direct review may be had in the
Supreme Court. The jurisdiction of the United States Court of Appeals for
the Federal Circuit shall be limited to the jurisdiction described in sections
1292(c) and (d) and 1295 of this title.”
-ah'

Title 28 U.S. Code § 1651. Writs
(a)

The Supreme Court and all courts established by Act of Congress may issue
all writs necessary or appropriate in aid of their respective jurisdictions and
agreeable to the usages and principles of law.

(b)

An alternative writ or rule nisi may be issued by a justice or judge of a court
which has jurisdiction.
(June 25, 1948, ch. 646, 62 Stat. 944; May 24, 1949, ch. 139, § 90, 63 Stat.
102.)

The Judiciary Act of 1789, officially titled "An ^ct to Establish the Judicial Courts
of the United States," was signed into law by President George Washington on
September 24, 1789. Article III of the Constitution established a Supreme Court but
left to Congress the authority to create lower federal courts as needed.
“And there shall be appointed in each district a meet person learned in the law to act
as attorney for the United States in such district, who shall be sworn or affirmed to
the faithful execution of his office, whose duty it shall be to prosecute in such district
all delinquents for crimes and offences, cognizable under the authority of the United
States, and all civil actions in which the United States shall be concerned,”
The Judiciary Act of 1789 (ch. 20, 1 Stat. 73
The Judiciary Act of 1789 gave the U.S. Supreme Court original jurisdiction
to issue writs of mandamus (legal orders compelling government officials to act in
accordance with the law). ... Therefore, the Court has the final say over when a
right is protected by the Constitution or when a Constitutional right is violated

STATEMENT OF THE CASE BEFORE THE COURT
' -

The following facts are true and accurate. These facts do not constitute
all of the facts known to the parties concerning the charged offense;
they are being submitted to demonstrate that sufficient facts exist that
the individuals cited in the Formal Notifications of Title 18 U.S.C. § 4
Misprision Felony committed the offenses alleged by Petitioner.
Jurisdiction:
The Judiciary Act of 1789, officially titled "An Act to Establish the
Judicial Courts of the United States," was signed into law by President
George Washington on September 24, 1789. Article III of the Constitution
established a Supreme Court but left to Congress the authority to create
lower federal courts as needed.
“And there shall be appointed in each district a meet person learned in
the law to act as attorney for the United States in such district, who shall
be sworn or affirmed to the faithful execution of his office, whose duty it
shall be to prosecute in such district all delinquents for crimes and
offences, cognizable under the authority of the United States, and all civil
actions in which the United States shall be concerned,”
The Judiciary Act of 1789 (ch. 20, 1 Stat. 73)
The Judiciary Act of 1789 gave the U.S. Supreme Court original
jurisdiction to issue writs of mandamus
(legal orders compelling
-^r
government officials to act in accordance with the law). ... Therefore,.

Page | 1

t"

-

r

the Court has the final say over when a right is protected by the
Constitution or when a Constitutional right is violated.
• THE EXTRAORDINARY REMEDY IS APPROPRIATE IN THIS
CASE
Petitioners are entitled to relief because (1) their right to the writ is
clear and indisputable; (2) they have no other adequate means to obtain
relief; and (3) the writ is appropriate under the circumstances. In re
Gee, 941 F. 3d 153,157 (5th Cir. 2019) (per curium) [although unsigned,
in re Gee is published, binding precedent.] In re Volkswagen of Am.. Inc
545 F.3d 304,311 (5* Cir.2008) (en banc),
• As the record with show, the entry of the “Order”, allegedly1
issued by the three-judge panel is contrary to what the Clerk of
the Fifth Circuit entered in the Official Docket - a fact that the
“Certified Copy” obtained and Certified and True and Correct, by
the Clerk, sent through the U.S. Maps and paid by Petitioner with
a U.S. Postal Money Order.

• As the record will show, the Clerk did not Enter or Record,
Petitioner’s Writ of Mandamus clearly a “Ministerial Act” required

1 There is a question concerning the legitimacy of this “Order” No stamped file
dates, or signatures of the Court to Verify its authenticity. Contained within the
Certified Docket Certified by the Clerk as true and correct—stating Panel Not
Available. Is highly suspect.
Page | 2

/ -

by Duties of the Clerk, Office of the —?kClerk regarding Default
Judgments.
Federal Rules of Civil Procedure Rule 55 (a) - Default, Default
Judgment:
“55(a) Entering a Default. When a party against whom a
judgment for affirmative relief is sought has failed to plead or
otherwise defend, and that failure is shown by affidavit or
otherwise, the clerk must enter the party’s default”

• As the record will show, the Clerk did not maintain a true and
correct Docket as Certified2 and required— a fact that is clear and
indisputable.

• As the record will show, the Courts3 both Appellate and District
Courts did not act on the Title 18 U.S.C. § 4 Misprision Felony
Notifications made by Petitioner.
Note: The Courts, by not acting according to statutory
requirements becomes “active concealment of a Felony” in
furtherance of a crime. The “overt act” is No Action taken on the
Formal Notification’s made by Roger Liverman, Petitioner.

Petitioner requested and obtained through the mails and with a U.S. Postal Money
Order, received a Certified Copy of the Docket, certified by the Clerk.
U.S. District
3 U.S. Court of Appeals, Fifth Circuit, New Orleans, No. 19-51053
Court Western District of Texas, Midland Division Case No. 7:19-CV-62
Page | 3

}

-

r

In the instant case, the language contained in Title 18 U.S.C. § 4
Misprision of Felony is quite clear concerning the duties and
responsibilities of a Private Citizen to notify a “Judge or someone in
Authority”. Congress has provided that a citizen “shall” do this.
Due to the Separation Clauses in the U.S.Constitution, the Appellate
Court, District Court does not have authority to execute the
enforcement of law, that is reserved to the Executive Branch. The
Courts can only “interpret” the law. — U.S. Constitution Article I, II,
III.
Legal Analysis:
Nowhere has Congress given it the option to ignore the language and
provisions of the statute Title 18 U.S.C. Sec. 4 Misprision Felony by the
Court. The Court does not have the discretion and ability to determine
how it will effectuate its statutory duty to achieve the goals expressed
by Congress.
The word “shall” is imperative, and, it deprives the Court of the right to
do something that is clearly contrary to Congressional intent.
A writ of mandamus or prohibition is available “to confine an inferior
court to a lawful exercise of its prescribed jurisdiction or to compel it to
exercise its authority when it is its duty to do so.” Roche v. Evaporated
Milk Ass’n, 319 U.S. 21, 26 (1943).

Page | 4

The writ may issue if there is no other adequate means of obtaining the
desired relief; if the petitioner’s right to issuance of the writ is “clear
and indisputable”; and if the appellate court in its discretion is satisfied
that mandamus is appropriate under the circumstances. Cheney v. U.S.
Dist. Court. 542 U.S. 367, 380-81 (2004) (quotation marks omitted);
Mallard v. U.S. Dist. Court. 490 U.S. 296, 309 (1989); In re Avantel.
S.A., 343 F.3d 311, 317 (5th Cir. 2003).
Each of these factors is satisfied here, as the sweeping sanctions clearly
exceed the U.S. Court of Appeals, Fifth Circuit / U.S. District Court,
Western District of Texas, Midland Divisions authority. Creating a
Fraud Upon the Court by the Court.
The United States Court of Appeals for the Sixth Circuit has set forth
five elements of fraud upon the court which consist of conduct: “1. On
the part of an officer of the court; 2. That is directed to the judicial
machinery’ itself; 3. That is intentionally false, willfully blind to the
truth, or is in reckless disregard for the truth; 4. That is a positive
averment or is concealment when one is under a duty to disclose; 5.
That deceives the court.” Demianjuk v. Petrovsky, 10 F.3d 338, 348 (6th
Cir. 1993).
Page | 5

Although other United States Courts of Appeals have not articulated
express elements of fraud upon the court as the Sixth Circuit did, the
doctrine has been characterized “as a scheme to interfere with the
judicial machinery performing the task of impartial adjudication, as by
preventing the opposing party from fairly presenting his case or
defense.”
Finality Trap
Only through the use of the Writ of Mandamus to the U.S. Supreme
Court

can the Finality Trap that was created by the Clerk of the

Fifth Circuit Court of Appeals to put this case in Limbo and which
violated Petitioners Right of Due Process and Equal Protection Clauses
of the U.S. Constitution
The alleged “Order” [so called because there are no dates stamped or
judicial signatures, proving such “Order” was official. The “Order” only
dismisses part of the multi-claim litigation and left the remainder
intact. The Clerk of the Fifth Circuit entered in the docket- see
Appendix Tab 1 Certified Docket — That this case was Dismissed in its
Entirety... Which is not true. Hence the “trap” was set. Creating a
Fraud Upon the Court by the Court.
The necessary measure of protection for government documents and
records is provided by 18 U.S.C. § 2071. Section 2071(a) contains a
broad prohibition against destruction of government records or
attempts to destroy such records. This section provides that whoever:
Page | 6

V

willfully and unlawfully; conceals, removes, mutilates, obliterates or
destroys; or attempts to conceal, remove, mutilate, obliterate or destroy;
or carries away with intent to conceal, remove, mutilate, obliterate or
destroy; any record, proceeding, map, book, paper, document or other
thing deposited in any public office may be punished by imprisonment
for three years, a $2, 000 fine, or both.

There are several important aspects to this offense. First, it is a specific
intent crime. This means that the person must act intentionally with
knowledge that he/she is violating the law. See United States v.
Simpson, 460 F.2d 515, 518 (9th Cir. 1972).
Moreover, one case has suggested that this specific intent requires that
the person know that the documents involved are public records. See
United States v. DeGroat, 30 F. 764, 765 (E.D.Mich. 1887).

Subsection (b) of Title 18 U.S.C. § 2071 contains a similar prohibition
specifically directed at custodians of public records.
“Any custodian of a public record who "willfully and unlawfully
conceals, removes, mutilates, obliterates, falsifies, or destroys
(any record) shall be fined not more than $2,000 or imprisoned not
more than three years, or both; and shall forfeit his office and be
disqualified from holding any office under the United States."
While the range of acts proscribed by this subsection is somewhat
narrower than subsection (a), it does provide the additional
penalty of forfeiture of position with the United States.
Page | 7

r

Note: This filing is both a Writ of Mandamus to compel the lower courts
to perform “ministerial acts” required by law and custom and a Formal
Notification of Misprision Felony to a “ as soon as possible make known
the same to some judge or other person in civil or military authority
under the United States”
Roger Liverman, Petitioner, appearing “pro se” in order to comply with
the statutory language regarding Title 18 U.S.C. § 4 Misprision Felony
and hereby makes this:
“Formal Notification to the United States Supreme Court of Title 18
U.S.C. § 4 Misprision Felony of the Clerk, Fifth Circuit Court of
Appeals, New Orleans for Violating Title 18 U.S.C. § 2071(b)”
Background of Formal Notification made to the Court of
Appeals, Fifth Circuit.
The Clerk, Office of the Clerk, U.S. Courfof Appeals, Fifth Circuit
received this notification in December 2019. On January 08, 2020
Petitioner received a letter from the Clerk stating- “We are taking no
action on this document as we are unable to determine the relief you
are requesting.”

Page | 8

r

U.S. District Court, Western District of Texas (Midland Division)
Now Comes, Roger Liverman, Plaintiff-Affpellant appearing Pro Se,
hereby filed a Formal Notification of Title 18 U.S.C. § 4 Misprision
Felony of Jeannette J. Clack, Clerk of Court, Philip J. Devlin, Chief
Deputy, Office of the Clerk, U.S. District Court, Western District of
Texas (Midland Division) for Violating Title 18 U.S.C. § 2071.
Concealment, Removal, or Mutilation Generally.
Pro Se Plaintiff-Appellant respectfully Request that this matter be
referred to the United States Department of Justice for further
Investigation and Prosecution to the fullest extent of the law.
Pursuant to Title 18 U.S.C. Sec. 4 Misprision of Felony
“Whoever, having knowledge of the actual commission of a felony
cognizable by a court of the United States, conceals and does not as soon
as possible make known the same to some judge or other person in civil
or military authority under the United States, shall be fined under this
title or imprisoned not more than three years, or both". (June 25, 1948,
ch. 645, 62 Stat. 684; Pub. L. 103-322, title XXXIII, §330016(1)(G), Sept.
13, 1994, 108 Stat. 2147.)
Petitioner in accordance to rules regarding- Representations to Court
By presenting to the court (whether by signing, filing, submitting, or
later advocating) a pleading, written motion, or other paper, an
-*r

attorney or unrepresented party is certifying that to the best of the

Page | 9

?

.

}'

person's knowledge, information, and belief, formed after an inquiry
reasonable under the circumstances, (1) It is not being presented for any improper purposes, such as to
harass or to cause unnecessary delay or needless increase in the cost of
litigation.
(2) The claims, defenses, and other legal contentions therein are
warranted by existing law or by a nonfrivolous argument for the
extension, modification, or reversal of existing law or establishment of
new law,
(3) the allegations and other factual contentions have evidentiary
support or, if specifically, so identified, are likely to have evidentiary
support after a reasonable opportunity for further investigation or
discovery;"
Statement of Facts
• On November 27, 2019, Roger Liverman Plaintiff-Appellant
appearing Pro Se and “in forma pauperis made a specific request
for the complete file and exhibits for Appeal Brief filing. Sent
Return Receipt Requested, Green Card signed by S. Estrada,
December 4, 2019.

• On December 05, 2019, the United States Court of Appeals, Fifth
Circuit, Office of the Clerk sent a letter to Mr. Roger Liverman,
422 Holiday Drive, Ponder, Texas 76259 regarding No. 19-51053

Page | 10

t

'

Roger Liverman v. La Wanda McMurray, et al DC No. 7:19-CV-62.
The letter stated:
“Pro Se litigants may request the record from the district court to
prepare their brief. Those proceeding in forma pauperis may
—=&

receive the record without payment of shipping costs. If you wish
to receive exhibits, you must specifically request them,
Once you obtain the record, you should check it within 14 days of
receipt for any missing or incomplete items. If you need to request
a supplement record or order transcripts, do so promptly, the
court will not grant extensions of time to file your brief because
you did not timely check the record.”
• On December 10, 2019, Roger Liverman Plaintiff-Appellant
appearing Pro Se and “in forma pauperis made a specific request
for the missing exhibits and attachments needed for Appeal Brief
filing. Sent Return Receipt Requested, Green Card signed by S.
Estrada, December 12, 2019.
• On December 19, 2019, Roger Liverman Plaintiff-Appellant
appearing Pro Se and “in forma pauperis made a specific request
for the missing exhibits and attachments needed for Appeal Brief
filing. Made several phone calls to both the Office of the Clerk,
U.S. District Court, Western District of Texas (Midland Division)
and to the United States Court of Appeals, Fifth Circuit, Office of
the Clerk regarding the “missing” filings and exhibits. I was
informed that the Documents being sought are “not in the file. »-=—*-•
Page | 11

Specifically, missing documents are the Attachment and Exhibits
attached to Pro Se Plaintiffs Objection to Entire US Magistrate
Judges Order Denying Plaintiffs Emergency to Recuse and For
Sanctions [see Entry 58 (Entered: 10/17/2019)] and Notice of
Filing Pro Se Plaintiffs Objection to Entire Report and
Recommendation of the US Magistrate Judge [see Entry 59
(Entered: 10/17/2019)] highlighting the false, statements
contained therein to the U.S. District Judge David Counts.

• On December 19, 2019, the United States District Court, Western
District of Texas, Office of the Clerk sent a letter dated December
16,2019, to Mr. Roger Liverman, 422 Holiday Drive, Ponder,
Texas 76259 regarding: MO:19-CV-62-DC-RCG, stating:
“A CD was mailed to you with a digital copy of your documents,
the clerk was kind enough to print a courtesy copy for you. Please
refer to your CD which contain all the pages you previously
requested. Feel free to contact us with any questions.

• Roger Liverman, Plaintiff-Appellant appearing “Pro Se and in
forma pauperis” called the United States District Court, Western
District of Texas, Office of the Clerk to inform them I am 76 years
old and do not have a computer or know how to use one, Needless

Page | 12

?

.

to say, the person I spoke to was not helpful. Informed me that I
was not getting anything from her.

One of the principal responsibilities of the federal criminal law is the
protection of government property. The property holdings of the United
States, its departments and agencies are extensive and include both
real and personal property in this country and abroad. In order for the
Federal government to perform the wide range of duties assigned to it
by law, it must have ready access to these properties and resources.
Therefore, it is very important that these properties be protected from
any theft, misuse or misappropriation.
9-66.400 - Protection of Public Records, Documents and Other
—^6:

Government Information
Protection of Public Records and Documents CRM at 1663
The taking of a public record or document is prohibited by 18 U.S.C. §
641. The destruction of such records may be reached under 18 U.S.C. §
1361. In both instances, however, proving a $100 loss, the prerequisite
to a felony conviction, may be difficult. Thus, neither of these statutes
adequately protects government records.
The necessary measure of protection for government documents and
records is provided by 18 U.S.C. § 2071. Section 2071(a) contains a
broad prohibition against destruction of government records or
attempts to destroy such records. This section provides that whoever:
willfully and unlawfully; conceals, removes, mutilates, obliterates or
Page | 13

destroys; or attempts to conceal, remove, mutilate, obliterate or destroy;
or carries away with intent to conceal, remove, mutilate, obliterate or
destroy; any record, proceeding, map, book, paper, document or other
thing deposited in any public office may be punished by imprisonment
for three years, a $2, 000 fine, or both.
There are several important aspects to this offense. First, it is a specific
intent crime. This means that the defendant must act intentionally
with knowledge that he is violating the law. See United States v.
Simpson. 460 F.2d 515, 518 (9th Cir. 1972). Moreover, one case has
suggested that this specific intent requires that the defendant know
that the documents involved are public records. See United States v.
DeGroat. 30 F. 764, 765 (E.D.Mich. 1887).
The acts proscribed by this section are defined broadly. Essentially
three types of conduct are prohibited by 18 U.S.C. § 2071(a). These are:
(1) concealment, removal, mutilation, obliteration or destruction of
records; (2) any attempt to commit these proscribed acts; and (3)
carrying away any record with the intent to conceal, remove, mutilate
or destroy it. It should be noted that all of these acts involve either
misappropriation of or damage to public records. This has led one court
to conclude that the mere photocopying of these records does not violate
18 U.S.C. § 2071. See United States v. Rosner, 352 F. Supp. 915, 919-22
(S.D.N.Y. 1972).

Page | 14

t

*

Subsection (b) of 18 U.S.C. § 2071 contains a similar prohibition
specifically directed at custodians of public records. Any custodian of a
public record who "willfully and unlawfully conceals, removes,
mutilates, obliterates, falsifies, or destroys (any record) shall be fined
not more than $2,000 or imprisoned not more than three years, or both;
and shall forfeit his office and be disqualified from holding any office
under the United States."
While the range of acts proscribed by this subsection is somewhat
narrower than subsection (a), it does provide the additional penalty of
forfeiture of position with the United States.

Title 18 contains two other provisions, of somewhat narrower
application, which relate to public records. Section 285 prohibits the
unauthorized taking, use and attempted use of any document, record or
file relating to a claim against the United States for purposes of
procuring payment of that claim. Sectional506 prohibits the theft,
alteration or falsification of any record or process in any court of the
United States. Both of these sections are punishable by a $5,000 fine or
imprisonment for five years.
Title 18 U.S.C. § 2071 Concealment, removal, or mutilation
generally
(a) Whoever willfully and unlawfully conceals, removes, mutilates,
obliterates, or destroys, or attempts to do so, or, with intent to do so
takes and carries away any record, proceeding, map, book, paper,
document, or other thing, filed or deposited with any clerk or officer of
any court of the United States, or in any public office, or with any
Page | 15
—=4c.

r <

judicial or public officer of the United States, shall be fined under this
title or imprisoned not more than three years, or both.
(b) Whoever, having the custody of any such record, proceeding, map,
book, document, paper, or other thing, willfully and unlawfully
conceals, removes, mutilates, obliterates, falsifies, or destroys the same,
shall be fined under this title or imprisoned not more than three years,
or both; and shall forfeit his office and be disqualified from holding any
office under the United States. As used in this subsection, the term
"office" does not include the office held by any person as a retired officer
of the Armed Forces of the United States.
(June 25. 1948, ch. 645. 62 Stat. 795: Pub. L. 101-510. div. A. title V.
§552(a), Nov. 5. 1990. 104 Stat. 1566; Pub. L. 103-322. title XXXIII.
§330016(11(1). Sent. 13. 1994. 108 Stat. 2147.)
Historical and Revision Notes
Based on title 18, U.S.C., 1940 ed., §§234, 235 (Mar. 4. 1909. ch. 321.
§§128, 129. 35 Stat. 1111. 1112).Section consolidates sections 234 and
235 of title 18, U.S.C., 1940 ed.
Reference in subsection (a) to intent to steal was omitted as covered
by section 641 of this title. Minor changes were made in phraseology.

Title 18 USC §1512 (b) Whoever knowingly uses intimidation,
threatens, or corruptly persuades another person, or attempts to do so,
or engages in misleading conduct toward another person, with intent to
- (1) influence, delay, or prevent the testimony of any person in an
official proceeding; (2) cause or induce an^ person to - (A) withhold
testimony, or withhold a record, document, or other object, from an
official proceeding; (B) alter, destroy, mutilate, or conceal an object with
intent to impair the object’s integrity or availability for use in an official
proceeding; ... shall be fined under this title or imprisoned not more
Page | 16

than 20 years, or both. (3) ... (c) Whoever corruptly—(1) alters, destroys,
mutilates, or conceals a record, document, or other object, or attempts to
do so, with the intent to impair the object’s integrity or availability for
use in an official proceeding; or (2) otherwise obstructs, influences, or
impedes any official proceeding, or attempts to do so, shall be fined
under this title or imprisoned not more than 20 years, or both.
Background
• The U.S. Magistrate Judge Ronald C Griffin, willfully and
knowingly did make and use a false writing or document knowing
the same to contain a materially false, fictious, and fraudulent
statement and entry with the intent to impede, obstruct, or
influence the investigation or proper administration of any matter
within the jurisdiction or agency of the United States, and did
attempt to do the same to wit, U.S. Magistrate Judge Ronald C
Griffin, created and signed, and submitted to U.S. District Judge
David Counts and to the Clerk of the Court, U.S. District Court,
Western Division, (Odessa/Midland) ORDER DENYING 25
Emergency Motion to Recuse Magistrate Judge Ronald C. Griffin
and Sanction Defendants and Defendant Attorney of Record and
Law Firm (Motion to Recuse and for Sanctions). Signed by Judge
Ronald C Griffin, to appear [see entry 53 (Entered: 10/03/2019) on the Official Docket, a materially false instrument indicating
that U.S. Magistrate Judge Ronald C Griffin signed and ORDER
GRANTING 2_Motion to Leave to Proceed in forma pauperis.

-=k'

Page | 17

\

V

Signed by Judge David Counts, [see entry 12 entered 04/03/2019
when he had not in fact done so.
• The U.S. Magistrate Judge Ronald C Griffin, willfully and
knowingly did make and use a false writing or document knowing
the same to contain a materially false, fictious, and fraudulent
statement and entry with the intent to impede, obstruct, or
influence the investigation or proper administration of any matter
within the jurisdiction or agency of the United States, and did
attempt to do the same to wit, U.S.JVlagistrate Judge Ronald C
Griffin, created and signed, and submitted to U.S. District Judge
David Counts and to the Clerk of the Court, U.S. District Court,
Western Division, (Odessa/Midland) REPORT AND
RECOMMENDATON Signed by Judge Ronald C Griffin, to
appear [see entry 54 (Entered: 10/07/2019) - on the Official
Docket4, a materially false instrument indicating that U.S.
Magistrate Judge Ronald C Griffin signed and ORDER
GRANTING 2_Motion to Leave to Proceed in forma pauperis.
Signed by Judge David Counts, [see entry 12 entered 04/03/2019
when he had not in fact done so.
• It must be highlighted that in both the ORDER DENYING 25
Emergency Motion to Recuse Magistrate Judge Ronald C. Griffin
and Sanction Defendants and Defendant Attorney of Record and
Law Firm (Motion to Recuse and for Sanctions). Signed by Judge

4 Certified Docket by Clerk of the Court
Page | 18

'•* .

Ronald C Griffin and the REPORT AND RECOMMENDATON
Signed by Judge Ronald C Griffin, to appear [see entry 54
(Entered: 10/07/2019) - on the Official Docket, that the a materially
false instrument indicating that U.S. Magistrate Judge Ronald C
Griffin signed and ORDER GRANTING 2_Motion to Leave to
Proceed in forma pauperis in the Prior Civil Litigation when he
had not in fact done so.
• Because there was no Motion to Leave to Proceed in forma
pauperis because Roger Liverman, Appellant paid the filing fee in
that case as [see the attached receipt.] This is a Significant Fact.
• Notice of Filing Pro Se Plaintiffs Objection to Entire US
Magistrate Judges Order Denying Plaintiffs Emergency to Recuse
and For Sanctions [see Entry 58 (Entered: 10/17/2019)] and Notice
of Filing Pro Se Plaintiffs Objection to Entire Report and
Recommendation of the US Magistrate Judge [see Entry 59
(Entered: 10/17/2019)] highlighting the false, statements
contained therein to the U.S. District Judge David Counts.
• On 10/24/2019, the Clerk of the Court, knowingly and willfully
changed the Official Docket by entering a materially false
instrument indicating that U.S. Magistrate Judge Ronald C
Griffin signed and ORDER GRANTING 2_Motion to Leave to
Proceed in forma pauperis. Signed by Judge Ronald C. Griffin5,
5 Thus, attempting to correct the False Narrativefand Statement made by the U.S.
Magistrate Ronald C Griffin in his ORDER DENYING 25 Emergency Motion to
Recuse Magistrate Judge Ronald C. Griffin and Sanction Defendants and
Page | 19

(se) Modified text to correct Judge’s name on 10/24/2019 with the
document being altered, falsified and forged [see entry 12 entered
04/03/2019 when he had not in fact done so in violation of Title 18
U.S.C. § 2071 Concealment, Removal, or Mutilation Generally,
contains a similar prohibition specifically directed at custodians of
public records.
• Any custodian of a public record who "willfully and unlawfully
conceals, removes, mutilates, obliterates, falsifies, or destroys
(any record) shall be fined not more than $2,000 or imprisoned not
more than three years, or both; and shall forfeit his office and be
disqualified from holding any office under the United States."
While the range of acts proscribed by this subsection is somewhat

Defendant Attorney of Record and Law Firm (Motion to Recuse and for Sanctions).
Signed by Judge Ronald C Griffin and the REPORT AND RECOMMENDATON
Signed by Judge Ronald C Griffin to appear [see entry 54 (Entered: 10/07/2019) - on
the Official Docket,
However, this does not Correct a materially falsetinstrument indicating that U.S.
Magistrate Judge Ronald C Griffin signed and ORDER GRANTING 2_Motion to
Leave to Proceed in forma pauperis in the Prior Civil Litigation when he had not in
fact done so. Because the Appellant paid the filing fee in that prior litigation and
thus NO ORDER GRANTING 2_Motion to Leave to Proceed in forma pauperis was
ever filed or signed in that Case. A Fabricated false Statement that they Clerk of
the Court, U.S. Magistrate Judge Ronald C Griffin and U.S. District Judge David
Counts knew was going to be used in the Docket. [See Entry 60 ORDER
ADOPTING REPORT AND RECOMMENDATION AND AFFIRMING THE
MAGISTRATE JUDGES ORDER as to 54 Report and Recommendations Signed by
Judge David Counts, (see) (Entered 10/28/2019) and FINAL JUDGEMENT. Signed
by Judge David Counts (see) (Entered: 10/28/2019.
Page | 20

‘»

\'

narrower than subsection (a), it does provide the additional
penalty of forfeiture of position with the United States.

CONCLUSION
Relief Sought:
For the foregoing reasons, the Petitioner Roger Liverman respectfully
requests that “clear and indisputable” facts; —- Requires this Court to
issue an Order compelling:
• The Clerk of the Fifth Circuit, Court of Appeals, New Orleans to
Correct the Docket in this Proceeding.

• The Clerk to Enter Plaintiffs-Appellants Petition of Writ of
Mandamus to compel the U.S. District Clerk, to Enter and Issue
and Record the Federal Rule of Civil Procedure Rule 55 - Default;
Default Judgment.
• Petitioner’s Formal Notifications to the Courts concerning Title
18 U.S.C. § 4 Misprision Felony be referred to the “Proper
Authorities” in the U.S. Dept, of Justice, to be fully investigated
and prosecuted to the fullest extent of the law.

Page | 21

*t

\

The Clerks actions or lack of action caused a Fraud upon the Court and
by the Court. It was a fraud directed at the machinery of the Court not
by the parties involved. — making Null and Void all actions by the Fifth
Circuit, U.S. District Court concerning this matter.
“Fraud vitiates whatever it touches” and everything that those
individuals conduct contained in the Formal Notifications— has
touched regarding this litigation and all actions made by these
individuals in the past and currently. Now is suspect and shall be
subject to review and audit.
Submitted,
V

Roger Liverman, Plaintiff-Appellant

-^r

422 Holiday Drive,
Ponder, Texas 76259

Page | 22

\ \

Certificate of Compliance
The undersigned Petitioner provides the following Certificate of Compliance:
1. This Brief complies with the type-volume limitation because it contains
approximately 4827 words, which is at or under the limit of 9,000 words,
excluding the following parts: cover page, certificate of interested persons,
table of contents, table of authorities, statement regarding oral argument, any
addendum containing statutes, rules or regulations, and certificates of counsel.

.

2. This Brief complies with the typeface and type-style requirements because it has
been prepared in a proportionally spaced typeface using Microsoft
Word in 14-point font.

I, ROGER LIVERMAN, hereby signs under the penalty of perjury that these
State]
;s are true and correct best of my knowledge.

c
Petitioner, Pro Se
Roger Overman
422 Holiday Drive
Ponder, Texas 76259

